No.

-5135
IN THE

SUPREME COURT OF THE UNITED STAT

In re JAMES BOWELL,

— PETITIONER

(Your Name)
vs.

CALIFORNIA SUPREME COURT, —

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

James BoWell, CPC #H04180
(Your Name)

480 Alta Road, C-12-221
(Address)

San Diego, CA 92179
(City, State, Zip Code)

1-619-661-6500
(Phone Number)

Page 1 of 87.

QUESTION(S) PRESENTED

1. Would it be considered a 6th Amendment deprivation violation
ineffective assistance of counsel for a court appointed attorney
refusing to present for a criminal defendant on habeas an issue
where the superior court judge could impose no sentence other than
Legislative Statute's maximum for a parolee's revocation while
serving original crime of conviction, subject to certain limits
specified in the Statute's?

2. If the specific "consequences" of a plea agreement is not
explained to defendant by the original court judge at the time entered
at issue, severe "punishments" the prior conviction used in this
current offense unknown "consequences',' is it reversible error where
the record did not disclose that defendant voluntarily and understandingly entered his pleas of guilty, made without knowledge of the absurd
"consequences"?
3. Where the acts of violation are criminal in their own right,
would it raise a double jeopardy issue if the revocation of super­
vised release on parole was also "punishment" for the same offense,
attributing postrevocation penalties to the original conviction?
4. Was the superior court sentence of 25 years to life for failing
to register as alleged sex offender unconstitutional and unenforceable
that annexes a higher degree of "punishment" swelling the penalty above
what the Legislative Statute's authorized maximun 180 days for a felony
parolee's revocation under the Board of Parole Hearings jurisdiction?
5. Imposing a new "punishment" now confronted statutory sentencing
enhancement that increased "punishment" associated with the initial
offense and parole revocation. Does it trigger a new prosecution or
does revoking parole constitute a part of the original crime sentence
that I was still serving as a parolee?

i

LIST OF PARTIES

[:] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Office of the District Attorney
Post-Conviction Litigation & Discovery Division
Habeas Corpus Litigation Team
320 W. Temple Street, Rm. #540
Los Angeles, CA 90012
California Supreme Court
Tani G. Cantil-Sakauye, Chief Justice
350 McAllister Street, Room 1295
San Francisco, CA 94102

RELATED CASES

ii

TABLE OF CONTENTS

OPINIONS BELOW

1-12

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

14

STATEMENT OF THE CASE

15

REASONS FOR GRANTING THE WRIT

17

CONCLUSION

22

PROOF OF SERVICE 28 U.S.C. § 1746

87

INDEX TO APPENDICES

APPENDIX A BOARD OF PAROLE HEARINGS REVOCATION DOCUMENTS

.23-37

APPENDIX B SUPERIOR COURT ABSTRACT OF JUDGMENTS:BA191442.
A325882 PLEA TRANSCRIPT 6/29/76, SENTENCING
2/28/77 TRANSCRIPT CERTIFIED ON REVERSE SIDE . .
APPENDIX C CALIFORNIA DEPT. OF CORRECTIONS SCREENING FORM
QUOTE: SUBJECT HAS NO QUALIFYING OFFENSE .

38-76

APPENDIX D THE STATE BAR OF CALIFORNIA COMPLAINT REVIEW
RESPONSES 1/31/20 & 11/13/19
APPENDIX E

APPENDIX F

iii

77
78-83

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

APPENDIX

"1"

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix P • 3,__

3/25/20

[X] A timelv petition for rehearing was thereafter denied on the following date:
5/22/20--------------------, and a copy of the order denying rehearing
appears at Appendix P > [X] An extension of time to file the petition for a writ of certiorari was granted
to and including 8/18/20______ (date) on 6/19/20
(date) in
Application No. SCCA #S260608. See p.11-12.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
The California Court of Appeals Order 3/11/20 on p.4.
The Superior Court Order 1/31/20 herewith on p.5-10.

Page 1 of 12.

TABLE OF AUTHORITIES CITED

CASES
Ayestas v. Davis,(2018) 138 S. Ct. 1080
Boykin v. Alabama,(1969) 89 S. Ct. 1709, 1713
Garza v. Idaho,(2018) 139 S. Ct. 738
Johnson v. U.S.,(2000) 120 S. Ct. 1795, 529 U.S. 694, 700-701
People v. Cross,(CA Supreme Ct.5/18/15) 2015 DJDAR 5444
People v. Wiley,(6/28/19) 36 Cal. App. 5th 1063
Reeves v. Alabama,(2017) 138 S. Ct. 22
U.S. v. Davis,(6/24/19) 139 S. Ct. 2319

PAGE NUMBER
20
19 & 85-86
20
18 & 37 ^
18 & 84
16 & 35-36
20

....

U.S. v. Haymond,(6/26/19) 139 S. Ct. 2369
.
.
.
U.S. v. Sperling,(9th Cir.8/23/19) 2019 U.S. App. Lexis 25379
Wilson v. Sellars, 2018 DJDAR 3360
.
.
...

.

17
18
21
20

STATUTES AND RULES
California Penal Code § 290(h)

15.16.21

California Penal Code § 3057(a)(c)(1)

16.21

California Penal Code § 290(G)(2)

21

OTHER

13.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Amendment I, The right to petition for a redress;
2. Amendment V, No person shall be deprived of liberty without
Due Process of law;
3. Amendment VI, In all criminal prosecutions, the accused shall
enjoy the right to have the assistance of counsel;
4. Amendment VIII, Cruel and unusual punishment shall not be inflicted;
5. Amendment IX, The Constitution of certain rights shall not be
construed to deny or disparage others retained by the people; and
6. Amendment XIV, The states shall not make or enforce any law which
shall abridge the privileges or immunities of citizens of the U.S.,
nor deprive of liberty or Equal Protection of the laws Due Process.

14.

STATEMENT OF THE CASE
Upon release from Salinas Valley State Prison on 1/12/99 I timely
reported to the Pasadena Parole Office on 1/13/99 attempting to file a
CDCR Inmate/Parolee Appeal requesting a white parole officer. Parole
Agent Cecil Roberts(black), stated: His supervisor wanted to violate
my parole right then and there? Mr. Roberts said go get a cup of coffee
and return in twenty minutes while he located a place for me to stay
around skid row in Los Angeles area. I simply did not return to the
parole office and rented a room in a townhouse for $350. per month.
On 1/14/99 a fugitive arrest warrant was issued for 1. Absconding
parole; 2. Traveling beyond 50 mileswithout approval; and 3.Failing to
register as alleged sex offender. My parole was revoked and on 5/11/99
at a revocation hearing at Chino State Prison I accepted a ten month
reimprisonment term, i.e., three months for absconding, one month for
traveling beyond fifty miles, and six months for failing to register,
in order to avoid the twelve month maximum that could have been imposed.
The California Dept, of Corrections, Board of Parole Hearings had
already "punished" me for the crime that involves no violence. While
serving the above revocation I was forced out to the Los Angeles Superior
Court and charged with the exact same offense of failing to register on
1/12/99 State Case BAi91442/9-l-00 date of sentencing 25 years to life
for failing to sign a piece of paper with home residence location at a
police station, a crime that was only a misdemeanor in 1991 at the time
of PC 220 assault conviction requiring PC 290 registration as alleged
sex offender, i.e., I have never been convicted of a sex crime! See p.77.

15.

Raising concerns with the leaglity of the sentence and conviction
in State Case BA191442/9-1-00 current incarceration for the 1999 alleged
failure to register while on parole. Please read the incorporated Board
of Parole Hearings most recent letter 4/4/20 along with Board Appeal of;
4/4/00 consisting of the original revocation hearing on 5/11/99 listing
the exact circumstances as described herein above the charge sheets with
Deputy Commissioner's signature ten months return to custody. See p.23-37.
To help expedite review of this matter I have attached a copy of
California Penal Code § 290(h) which reads as follows: Parole violation
revocation, any person released on parole required to register under
this section, but fails to do so, the Board of Prison Terms, shall order
the parole of the person revoked. See P-31&33.
California Penal Code § 3057(a)(c)(1) Quote: Confinement upon
revocation of parole, shall not exceed 12 months. Not more than 180 days
for an act "punishable" as a felony. See p. 32 & 34.
The Legislature's directive is clear in People v. Wiley,(6/28/19)
36 Cal. App. 5th 1063, In 1991 Wiley was convicted and released on parole
3/9/17 failing to register as a sex offender as required under § 290. The
Superior Court revoked Wiley's parole and remanded him to the custody of
CDCR finding a parole violation under the jurisdiction of BPH for a
determination of how to respond to that violation of "failure to regis­
ter." As reflected the court may only order the parolee to serve up to
180 days in jail "punishment" accruing directly from the underlying
conviction. A copy of Wiley herewith on p-35-36.

16.

REASONS FOR GRANTING THE PETITION
It was unconstitutional to read the statute's to impose additional
"punishment" that Congress intended the mandatory penalties that apply
to conduct, a specific statute reading the penalties to reach nonviolent
felony offense, meaning throughout the statute since it spoke of the
offense, its nature involved a certain "punishment." U.S. v. Davis,
(6/24/19) 139 S. Ct. 2319, The two statutes, thus, were originally
designed to be read together, the statutes are not vague nor do they
undermine Legislature's authorized responsibility. The imposition of ’
criminal "punishment" can't be made, the problem, its long standing
position looking at the scope of the statute's that actually commands
specific "consequences." Pure statutory interpretation acknowledging
as we recognize no vagueness, created Sixth Amendment complications
raising serious questions we need to examine the statutes text, context
and history. Defining as an element a fixed meaning simultaneously to
illustrate its point, inherent features in plain English that entails
the particular facts, overlooking the obvious reading of the text, the
staute's referring to. the conduct. Designed to be read together auto­
matically penalties settled statute's language construction. The court
invoked the canon to expand the reach of statute penalties employing
additional "punishment" on top of everything else. The separation of
powers suggests a court may not construe a criminal statute to penalize
conduct it does not clearly prescribe. The statute itself rests mandatory
penalties that apply. The task of statutory construction itself, the
power of "punishment" is vested in the Legislature, not the judicil
department. In other words, judges overblown invalidated severe punish-

17.

ments, we remand to allow the court to address our decision.
Finding U.S. v. Haymond,(6/26/19) 139 S. Ct. 2369, The offense
specified in the statute, takes away the judges discretion to decide
whether violation of parole conditions should result in reimprisonment
and for how long. Traditionally exposed a parolee to the remaining
prison term authorized for original crime of conviction revocation
statute, subject to certain limits.(Pinpointing Johnson v. U.S.,(2000)
120 S. Gt. 1795, 529 U.S. 694, at 700-701, Where the acts of violation
are criminal in their own right, they may be the basis for separate
prosecution, which would raise an issue of "double jeopardy" if the
revocation of supervised release on parole were also "punishment" for
the same offense. We therefore attribute postrevocation penalties to
the original conviction.) Declaring unconstitutional and unenforceable
triggering statute's term up to the maximum period in revocation hearing
Legislative functions to preserve judicial "Center Wheel of Liberties."
See p. 37.
Exhibiting charges of the court, finding clearly erroneous in
violation of the Constitution, in effect, the Boards "punishment"
straightforward specific santions prescribed sentence in revocation.
Imposing a new "punishment" was unconstitutional, not authorized!
Now confronted sentencing enhancement illegally prescribed in
State Case BA191442/9-1-00 currently serving right this very minute
State Case A325882/2-28-77 Plea Bargain Agreement "unknown consequences."
Focusing on People v. Cross,(CA Supreme Ct.5/18/15) 2015 DJDAR 5444,
Because he was unwarned that prior conviction had direct consequences
subjecting him to a longer prison term, the sentence must be set aside.
A copy of Cross on p.84.
18.

When a defendant enters a guilty plea, the trial court is required
to ensure that the plea is knowing and voluntary. Boykin v. Alabama,
(1969) 395 U.S. 238, 243-244, To make sure the accused has a full
understanding of what the plea "consequences" are. See p.85-86.

As in the instant case A325882/2-28-77 Plea transcript 7/22/76
Certified on reverse side of the Reporter's Certificate 7/24/96 from
archive specifically on pages 11-12, Quoting: Defendant: On this plea
bargain, does that mean thats what I am definitely going to take, or
the sentence is. See p.51.
Mr. Watson, District Attorney: The maximum possible sentence,
what I described to you, those are the maximum possible punishment.
You could receive theoretically nothing. Its all up to the judge, you

.1

might not go to prison at all, you might be put on probation. Maybe
no time at all, you might only be required to pay a fine. 100 percent
truthful cooperation^ Please read the transcript located on p.41-63.
The incorporated clear and convincing evidence Abstract of Judg­
ment for Case A325882/2-28-77 Certified on reverse side 7/24/96 for
this courts review articulation clarification to establish ineffective
assistance of counsel failing to raise Constitutional merits in state
habeas, sufficient basis to reopen both State Case's BA191442/9-1-00
and A325882/2-28-77. Boykin v. Alabama,(1969) 89 S. Ct. 1709, 1713,
Reversable error where record did not disclose that defendant voluntarily
and understandingly entered his pleas of guilty. The robbery convictions
must be Reversed outright, because the record is inadequate to show

19.

that Petitioner intelligently and knowingly pleaded guilty without
knowledge of the "consequences." A copy of Boykin located herewith
on p.85-86.
State Bar Complaint Unit letters dated 1/31/20 and 11/13/19
presenting a violation of Reeves v. Alabama, (2017) 138 S. Ct.22, A
court deciding an actual ineffectiveness claim must judge the reason­
ableness of counsel's conduct on the facts of the particular case,
failing to act or omissions constitutionally resulting in deficient
professional conduct "red flags" indicating error or deprivation
intentionally, recklessly, with gross negligence, establishing ineffectice assistance of counsel misconduct for failing to pursue
arguments. See State of California Bar letters herewith on p.78-83.
Readily accessible material records herewith Garza v. Idaho,(2018)
139 S. Ct. 738, It is Constitutionally ineffective counsel anytime the
attorney declines a criminal defendants request to appeal an issue,
certainly, the original meaning of the U.S. Constitutions Sixth Amend­
ment, i.e., the judge could not impose a sentence other than directed
by statute's.
This court Granted Ayestas v. Davis,(2018) 138 S. Ct. 1080,
Petitioner entitled to Habeas Relief, called for a determination
"reasonably necessary" as set out in the statute's petitioner has a
point, a viable Constitutional claim clear of any hurdles standing
in the way. Wilson v. Sellars, 2018 DJDAR 3360, This very court focu­
sing on California's pattern failing to rule on merits of habeas peti­
tions based on their rubber stamp deception to undermine the value of

20.

Liberty!
The lesson is clear, a narrow "punishment" for the initial
offense considering the revocation 5/11/99 to be sure, Legislative
power was the only legal limit fixed by the facts of failing to re­
gister as alleged sex offender under California Penal Code §§ 290(h)
reflected "punishment" 3057(a)(c)(l) 180 days maximum!
On remand form this court U.S. v. Sperling,(9th Cir.8/23/19)
2019 U.S. App. Lexis 25379, Defendants sentence was vacated, Granted.
This logic, the original meaning of postrevocation proceedings
of a parolee are treated as part of the penalty for the initial offense
quick and easy authorized by statute's the essence of parole before the
completion of sentence, thus, harmonious with our decisions designed
to promote efficiency. The true powers of justice and liberty!
JUSTICE REFORM
PRAYER
Certainly, the need for a New precedent law that does not under­
mine the "punishment" remedy for a parolee. The precise content already
in California statute's Penal Code as cited above to eliminate what role
they are really playing. The fundamental claim with emphatic articula­
tion requiring this courts command.
1. Please-vacate the unlawful sentence and conviction in state
case BA191442/9-1-00 failing to register as a parolee already
serving the exact same revocation term of 180 days for the
alleged offense PC 290(h) twice being "punished" the case
is a complete miscarriage of justice. 7The court Abstract of
Judgment reflecting PC 290(G)(2) same statute! See p.75-76.

21.

2. Please reverse the 1976 Plea of guilty in state case
A325882/2-28-77 current enhancement serving right this
very minute. The convictions should be voided, set aside
in the interest of justice because of the "unknown
consequences'.' I have been punished three times for that
breached plea agreement (a) the original sentence 2/28/77;
(b) 7/31/91 enhancement of five years in state case PA003248
minute order located herewith on page 70; and(c) the current
sentence in state case BA191442/9-1-00. The Plea was entered
or made without knowledge of the "consequences."
Narrowing the incorporated material evidence certified clarafication,
to be sure, in other words, I am the victim!

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

July 1, 2020

22.

